la
830 Fed.Appx. 698 (Mem)
This case was not selected for publication in West's
Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED
BY
FEDERAL
RULE
OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC
DATABASE
(WITH
THE
NOTATION "SUMMARY ORDER"). A PARTY
CITING A SUMMARY ORDER MUST SERVE A
COPY
OF
IT
ON
ANY
PARTY
NOT
REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
Hozie ROWELL, Plaintiff-Appellant,
v.
Police Officer Joan FERREIRA, individually and in her
official capacity, Shane Killilea, individually and in his
official capacity, Christopher Popovic, individually and
in his official capacity, Defendants-Appellees,
City of New York, John Doe, individually and in his
official capacity, Defendants.
19-3469
December 10, 2020

2a
Appeal from an order of the United States District Court
for the Southern District of New York (Nathan, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
district court's order is AFFIRMED.
Attorneys and Law Firms
For Plaintiff-Appellant: Cyrus Joubin, New York, NY.
For Defendants-Appellees: Philip W. Young (Richard P.
Dearing, Scott N. Shorr, Jonathan A. Popolow, on the
brief), New York City Law Department, for James E.
Johnson, Corporation Counsel of the City of New York,
New York, NY.
Present: JOHN M. WALKER, JR., ROBERT A.
KATZMANN, RICHARD C. WESLEY, Circuit
Judges.
SUMMARY ORDER
Plaintiff-appellant Hozie Rowell appeals from an
order of the district court entered September 18, 2019
denying his motion for a new trial under Batson v.
Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69
(1986), after the defendants used a peremptory challenge
to strike the only qualified African American juror on
the panel. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case, and
the issues on appeal.
Rowell argues that the district court clearly erred
in crediting the defendants’ reasons for striking the
juror. These reasons were (1) the fact that the juror was
“shaking his head” while the district court summarized

3a
the case, (2) his failure to respond “yes” to general panel
questions, and (3) his prior service on three juries. In
Batson, the Supreme Court held that the state may not
use its peremptory challenges to exclude potential jurors
on the basis of their race. See id.] Edmonson v. Leesville
Concrete Co., 500 U.S. 614, 628, 111 S.Ct. 2077, 114
L.Ed.2d 660 (1991) (extending Batson’s holding to the
exclusion of prospective jurors in civil cases). To
establish a Batson violation, “[fjirst, a [movant] must
make a prima facie showing that a peremptory challenge
has been exercised on the basis of race; second, if that
showing has been made, the [proponent] must offer a
race-neutral basis for striking the juror in question; and
third, in light of the parties’ submissions, the trial court
must determine whether the [movant] has shown
purposeful discrimination.” Foster v. Chatman,
U.S.
------, 136 S. Ct. 1737,1747,195 L.Ed.2d 1 (2016).1 During
the third step of the inquiry, “[t]he trial judge must
determine whether the [proponent's] proffered reasons
are the actual reasons [for the strike], or whether the
proffered reasons are pretextual and the [proponent]
instead exercised peremptory strikes on the basis of
race.” Flowers v. Mississippi,---- U.S.
, 139 S. Ct.
2228,2244, 204 L.Ed.2d 638 (2019). “The trial court must
consider the [proponent's] race-neutral explanations in
light of all of the relevant facts and circumstances, and in
light of the arguments of the parties.” Id. at 2243.
Because a trial court's finding as to the intent underlying
the use of a peremptory challenge rests principally *700
upon a credibility assessment that lies “peculiarly within
a trial judge's province,” we accord that determination
“great deference” and review it only for clear error. Id.
at 2244.
We affirm the district court's denial of Rowell's
motion for a new trial because we have no basis to

4a
disturb the district court's decision to credit the
defendants’ race-neutral explanation concerning the
juror's physical movements. See McCrory v. Henderson,
82 F.3d 1243, 1248 (2d Cir. 1996) (“[An attorney's]
explanation that a venireperson was excluded because
he or she seemed, for example, inattentive or hostile ... if
credible, is sufficient.”). Nor can we conclude that the
district court failed to consider the totality of the
circumstances in denying Rowell's Batson challenge.
The district court concluded that “a credible, raceneutral reason [had] been proffered” for the strike. J.A.
64 (emphasis added). While that brief statement does not
provide a full analysis that would have had to inform the
district court's judgment, we cannot conclude that it was
inadequate under our precedents. A district court need
not engage in a “talismanic recitation of specific words”
to satisfy Batson, Galarza v. Keane, 252 F.3d 630, 640
n.10 (2d Cir. 2001); instead, “unambiguous rejection of a
Batson challenge will demonstrate with sufficient clarity
that a trial court deems, the movant to have failed to
carry his burden to show that the [proponent's]
proffered race-neutral explanation is pretextual,”
Messiah v. Duncan, 435 F.3d 186,198 (2d Cir. 2006). And
while a district court may not evade its obligation to
“make clear whether it credits the non-moving party's
race-neutral explanation for striking the relevant
panelist,” Dolphy v. Mantello, 552 F.3d 236, 239 (2d Cir.
2009), here we conclude that the district court did make
that clear, see J.A. 64.
In light of those standards, we cannot say that the
district court clearly erred in its determination that
Rowell failed to show purposeful discrimination on the
part of the defendants. We have considered Rowell's
remaining arguments on appeal and have found in them

5a
no basis for reversal. For the foregoing reasons, the
order of the district court is AFFIKMETT

-4

Footnotes
lUnless otherwise indicated, in quoting cases, we omit
all internal citations, quotation marks, footnotes, and
alterations.

4

1

.ja

6a
2019 WL 4509048
Only the Westlaw citation is currently available.
United States District Court, S.D. New York.
Hozie ROWELL, Plaintiff,
v.
Police Officer Joan FERREIRA et al., Defendants.
16-cv-6598 (AJN)
Signed 09/18/2019Filed 09/19/2019
Attorneys and Law Firms
Cyrus Joubin, New York, NY, for Plaintiff.
Alison Sue Mitchell, Kavin Suresh Thadani, Melanie
Mary Speight, Brian Christopher Francolla, New York
City Law Department, New York, NY, for Defendants.
OPINION & ORDER
ALISON J. NATHAN, District Judge:
Plaintiff Hozie Rowell brings this motion for a
new trial under Rule 59(a) of the Federal Rules of Civil
Procedure. Mr. Rowell contends that the verdict was
seriously erroneous or a manifest injustice because the
sole juror of African-American appearance was struck.
He also alleges that Defendants' counsel suborned
perjury and made improper statements during her
summation. Defendants oppose and move for sanctions.
For the reasons given below, both parties' motions are
DENIED.
I. BACKGROUND

7a
The Court presumes the parties' familiarity with
"the-facts ofThe case. BeginrTing on February "ZCfYCTY,
this Court held a four-day jury trial on Mr. Rowell's
claim that Defendant Officer Shane Killilea had denied
him the right to a fair trial by fabricating evidence and
that Defendants Officers Joan Ferreira and Christopher
Popovic had failed to supervise Defendant Killilea.
On February 28, 2019, the Jury entered a verdict
in Defendants' favor on all three claims. Dkt. No. 120.
Due to an administrative delay, judgment was only
entered on June 4, 2019. Dkt. No. 130. On June 21, 2019,
Mr. Rowell filed the instant motion for a new trial under
Rule 59(a). Dkt. No. 131. Attached to this motion was a
declaration from Mr. Rowell's counsel, Mr. Joubin,
describing the origin of certain NYPD lab reports he had
attempted to introduce at trial as well as copies of those
reports. Dkt. No. 132. In their opposition, Defendants
sought sanctions against Mr. Joubin. Dkt. No. 137.
II. LEGAL STANDARD
“[A] motion for a new trial pursuant to Fed. R.
Civ. P. 59 may be granted by the district court, although
there is evidence to support the jury's verdict, so long as
the district court determines that, in its independent
judgment, the jury has reached a seriously erroneous
result or its verdict is a miscarriage of justice.” Nimely
v. City of New York, 414 F.3d 381, 392 (2d Cir. 2005)
(internal quotation marks and brackets omitted). As a
result, “on a motion for a new trial, the moving party
bears a heavy burden.” Lopez v. Ramirez, No. ll-cv-0474
(PGG), 2019 WL 3779277, at *9 (S.D.N.Y. Aug. 12, 2019)
(quoting Prendergast v. Pac. Ins. Co., No. 09-cv-6248
(MWP), 2013 WL 5567656, at *5 (W.D.N.Y. Sept. 25,
2013) (internal brackets omitted)); see also Spinelli v.

8a
City of New York, No. 02-cv-8967 (RWS), 2011 WL
2802937, at *1 (S.D.N.Y. July 12, 2011). Finally, “[i]t is
well-settled that Rule 59 is not a vehicle for relitigating
old issues, presenting the case under new theories,
securing a rehearing on the merits, or otherwise taking
a ‘second bite at the apple.’ ” Zargary v. City of New
York, No. OO-cv-897, 2010 WL 329959, at *1 (S.D.N.Y.
Jan. 26, 2010), affd, 412 F. App'x 339 (2d Cir. 2011)
(quoting Sequa Corp. v. GBJ Corp., 156 F.3d 136,144 (2d
Cir. 1998)).
III. DISCUSSION
A. Mr. Rowell's Motion for a New Trial Based on
Batson is Denied
Mr. Rowell's first challenge to the integrity of his
trial focuses on Defendants' peremptory strike of Juror
No. 12, the sole juror who appeared to be black. During
jury selection, the Court held that Defendants provided
a credible, race-neutral explanation of the strike and
Plaintiff had not shown purposeful racial discrimination.
The Court describes the circumstances surrounding the
strike, provides the Court's Batson analysis during jury
selection, and concludes that Mr. Rowell has not carried
his burden of showing that the Court should reconsider
this conclusion.
During jury selection, the panel of fourteen
qualified jurors included only one individual, Juror No.
12, who appeared to be black. Dkt. No. 121, at 27:7-13.
During voir dire, Juror No. 12 had provided minimal
information about himself. Id. at 26:9-10. Before
peremptories were exercised, one of Defendants'
attorneys, Ms. Mitchell, represented to the Court that
she had observed Juror No. 12 “during the course of [the

9a
Court's] reading summary of the case, shaking his head
and reacting physically in some way.” Id. at 26:9-15. The
Court's description of the case included Plaintiff's
allegation that Defendants had fabricated evidence.
Besides Ms. Mitchell, no one else reported having
witnessed these movements by Juror No. 12. Id. at 30:812. Based on this observation, Defendants requested
that the Court ask follow-up questions of Juror No. 12 to
ensure there was no basis for a cause strike. The Court
granted this request over Plaintiffs objection. Id. at
26:16-25, 27:1-2. The Court informed Juror No. 12 “that
an attorney witnessed him shaking his head during [the
Court's] reading of the summary of the case and wanted
to confirm if he had ... anything that he's heard about the
case that he thought would interfere with his ability to
be fair and impartial.” Id. 26:20-25. On the Court's
perception, Juror No. 12 “answered readily ‘no/ that he
had no concerns.” Id. at 26:24-25, 27:1-2. No additional
-requests were made regarding Juror #12 before the
parties exercised peremptory strikes. Id.
Defendants then exercised one of their three
peremptory strikes on Juror No. 12. Plaintiff then raised
a challenge under Batson v. Kentucky, 476 U.S. 79
(1986). In evaluating a Batson challenge, a trial court
employs a “three-part burden-shifting framework to
assess whether the challenged peremptory strike is
based on an impermissible discriminatory motive.”
United States v. Martinez, 621 F.3d 101, 108 (2d Cir.
2010) (citing Batson, 476 U.S. at 93-98). First, “the
objecting party must make a prima facie case that
opposing counsel exercised a peremptory challenge on
the basis of a protected class.” Id. (citing Hernandez v.
New York, 500 U.S. 352, 358-59 (1991)). Second, “if a
prima facie case is established, the burden shifts to the
challenged party to present a nondiscriminatory reason

10a
for striking the jurors in question.” Id. at 109 (citing
Batson, 476 U.S. at 97). And third, “if a valid reason is
articulated, the trial court considers the totality of the
circumstances to determine whether the objecting party
has carried its burden of proving purposeful
discrimination by a preponderance of the evidence.” Id.
(citing Hernandez, 500 U.S. at 363-64). The Court
applied that framework at trial.
First, the Court concluded that Mr. Rowell raised
a prima facie case that Juror No. 12 was struck because
of his race. “To establish a prima facie case of purposeful
discrimination, the objecting party must show that the
other party challenged members of a specific group and
that the totality of the circumstances raises an inference
of discriminatory motive.” Id. (citing Batson, 476 U.S. at
96-97). The striking of the lone individual who appeared
black on the panel lent some support to Mr. Rowell's
argument. As the Supreme Court has held, when
“peremptory strikes ... exclude 91% of the eligible
African-American
venire
members,”
then
“[hjappenstance is unlikely to produce this disparity.”
Miller-El v. Cockrell, 537 U.S. 322, 342 (2003); see also
Miller-El v. Dretke, 545 U.S. 231, 240-41 (2005). Here,
Defendants struck the sole juror who appeared to be
black. They did so despite the fact that he had not given
any answers that raised concerns about his impartiality.
Dkt. No. 121, at 26:9-10. And while Ms. Mitchell
represented that she had seen him make certain head
movements during the Court's reading of a summary of
the case, upon follow-up questioning by the Court, Juror
No. 12 answered “readily” that he had no concerns about
his impartiality. Id. at 26:24-25, 27:1-2. While it is more
difficult to draw statistical inferences from a sample size
of one, Defendants' striking of the sole member of the
panel who appeared black was sufficient to make a prima

11a
facie case that Juror No. 12 had been struck because of
his race.
As to the second step, Defendants then provided
three race-neutral justifications. At this step, “proffered
explanations are deemed valid unless discriminatory
intent is inherent in the challenged party's explanation.”
Martinez, 621 F.3d at 109. Indeed, the explanation need
not be “persuasive, or even plausible; so long as the
reason is not inherently discriminatory, it suffices.” Id.
(internal quotation marks omitted). Defendants offered
three justifications: (1) Juror No. 12's reaction to the
Court's statement of the case and his answer that he did
not have any particular feeling about the case despite
that reaction; (2) his zero “yes” answers to the voir dire
questions, which sought to elicit any basis for a cause
strike; (3) and the fact that he had previously served on
three different juries. Dkt. No. 121 at 28:17-19. All three
reasons were race-neutral and not inherently
discriminatory.
Finally, Mr. Rowell failed to meet his burden at
the third step. The central issue was whether Ms.
Mitchell's representations regarding Juror No. 12's head
movements were credible. Peremptory challenges “may
legitimately be based not only on answers given by the
prospective juror to questions posed on voir dire, but
also on the prosecutor's observations of the prospective
juror.” McCrory v. Henderson, 82 F.3d 1243,1247-48 (2d
Cir. 1996). The Court required that Ms. Mitchell provide
“a representation to the Court” as “the only witness of
the conduct that forms the basis of this strike.” Dkt. No.
121 at 30:6-12. Ms. Mitchell then represented that she
observed Juror No. 12 “lean back in the chair and tilt his
head back and his eyes rolled back, and his head, with his
head down, and he shook his head back and forth, side to
side.” Id. at 30:13-21. The Court held that in light of

12a
“counsel's representation made to this Court, as an
officer of the court, with obviously very serious
repercussions if anything that she said to me was not
true,” Defendants had given a credible, race-neutral
basis for the strike. Id. at 31:1-7,21-25,32:1. Taking all of
the circumstances into account, including numerical
disparity and the fact that Defendants had not struck
another juror who had also sat on a jury before, the
credible representation about Juror No. 12's behavior
led the Court to deny the Batson challenge.
Mr. Rowell has not met his heavy burden of
showing that the Court's decision on his Batson
challenge warrants reconsideration. A Rule 59 motion
“is not a vehicle for relitigating old issues.” Zargary,
2010 WL 329959, at *1 (quoting Sequa Cory., 156 F.3d at
144). In his motion, Mr. Rowell seeks to relitigate the
Court's Batson ruling based on similar arguments to
those he already made during jury selection. None of
* these
arguments
are
sufficient
to
warrant
reconsideration of the Court's contemporaneous
conclusion, based on Ms. Mitchell's representation to the
Court and the Court's observation of Ms. Mitchell's
demeanor, that Juror No. 12 was not struck based on his
race. Accordingly, Mr. Rowell's motion for a new trial
based on Defendants' strike of Juror No. 12 is denied.
B. Mr. Rowell's Motion for a New Trial Based on
Alleged Perjury is Denied
Turning to his second challenge, Mr. Rowell
argues that the verdict was tainted through perjury by
one of the arresting officers, Mr. Killilea, and
Defendants' counsel's suborning of that perjury. Mr.
Rowell contends that evidence he did not introduce at
trial shows that Mr. Killilea lied on the stand about

13a
having conducted field tests of substances that a
confidential informant purchased from Mr. Rowell. For
the reasons below, Mr. Rowell has failed to carry his
heavy burden of showing that perjury occurred and so
tainted the trial that he was entitled to a new one. The
Court first describes the substance of Mr. Killilea's
relevant testimony and then addresses Mr. Rowell's
challenge.
During the trial, Mr. Killilea testified that he had
supervised a confidential informant who made six or
seven controlled buys of drugs from Mr. Rowell. Dkt.
No. 125, at 433:24-25, 434:1. Mr. Killilea further testified
that for nearly all of those controlled buys, on that same
day he conducted field tests of the substances purchased
and found that they contained cocaine. Dkt. No. 123, at
423:15-25,424:1-13; Dkt. No. 125, at 434:1-5; Dkt. No. 132,
Ex. G. Mr. Killilea then testified that he filled out field
test reports with the results of those tests. Dkt. No. 123,
. at 443:23-25, 444:1. Mr. Rowell sought to show the
opposite: that Mr. Killilea had not filled out the field test
reports contemporaneously with the controlled buys, but
had done so afterwards and then back dated them.
Defendants argued that back dating these reports would
have been impossible since these reports were placed in
a packet alongside the narcotics and sent off to the
NYPD crime lab. Dkt. No. 127,684:17-21. Mr. Killilea
testified that while he did not specifically remember
whether he had sent the field test reports in question to
the NYPD lab, it was his practice to do so. Dkt. No. 125,
at 545:18-25, 546:1-9.
During Mr. Killilea's cross-examination, Mr.
Rowell sought to introduce documents that purportedly
showed that Mr. Killilea had not, in fact, placed the field
test reports in the envelope that was sent to the NYPD
crime lab. The documents in question are lab reports

14a
from the NYPD crime lab stating that field reports were
not present in the envelopes with the drugs from the
controlled buys. Dkt. No. 125, at 547:20-25, 548:1-5. Mr.
Rowell first attempted to present these documents to
Mr. Killilea to refresh his recollection, then asked to be
allowed to lay a foundation for these documents through
Mr. Killilea, despite the fact that Plaintiffs counsel
acknowledged that Mr. Killilea had never seen the
documents before. Id. at 546:14-22, 547:1-25, 548:1-25,
549:1-22. Plaintiffs counsel also conceded that he would
have needed to have an employee from the NYPD crime
lab come in to lay the foundation, but that he had not
done so. Id. at 549:16-18. Defendants objected and the
Court sustained the objection. Id. at 549:21-22.
Turning now to Mr. Rowell's arguments, he
contends that the unadmitted NYPD lab reports show
that Mr. Killilea perjured himself. Yet at base, Mr.
Rowell is attempting to impeach Mr. Killilea with
evidence that could have been introduced at trial but was
not. The evidence was not introduced at trial because no
witness was called who could properly authenticate it. A
Rule 59(a) motion is not a vehicle for “taking a ‘second
bite at the apple.’ ” Zargary, 2010 WL 329959, at *1
(quoting Sequa Corp., 156 F.3d at 144). And a court will
not generally grant a new trial to remedy the
consequences of decisions made by the moving parties'
counsel at trial. See Pace v. Nat'l R.R. Passenger Corp.,
291 F. Supp. 2d 93,102 (D. Conn. 2003) (“Defense counsel
cannot make a strategic decision to present testimony on
an issue, then post-hoc seek a new trial based on its own
strategy.”); Corning Glass Works v. Sumitomo Elec.
U.S.A., Inc., 674 F. Supp. 1074, 1075 (S.D.N.Y. 1987)
(finding “significant merit” to the contention that a party
may not seek “a new trial to submit evidence it could
have introduced before,” although ultimately granting

15a
motion for other reasons). The proper avenue for Mr.
Rowell's argument was to introduce the NYPD lab
reports during trial. Indeed, by his own admission, Mr.
Rowell's counsel, Mr. Joubin, could have called an
employee from the NYPD lab to lay the foundation for
the lab reports. Dkt. No. 125, at 549:16-18. Instead, he
sought to introduce the documents through a witness
who had never seen them before. Id. at 546:14-25, 547:125, 548:1-25, 549:1-22. Having failed to introduce the
NYPD lab reports at trial as evidence of the falsity of
Mr. Killilea's testimony, Mr. Rowell now seeks a second
opportunity to introduce these documents to this Court
for the same purpose. This is precisely the sort of
“second bite at the apple” that cannot sustain a Rule
59(a) motion.
Furthermore, even if the Court were to consider
Mr. Rowell's accusation of perjury on the merits, it is
unavailing. “Without clear and convincing evidence of
false testimony, accusations of perjury are insufficient to
disturb the jury's verdict.” Uzoukwu v. Krawiecki, No.
10-cv-4960 (RA), 2016 WL 6561300, at *8 (S.D.N.Y. Nov.
4,2016) (citing cases); see also Ricciuti v. New York City
Transit Auth., 70 F. Supp. 2d 300, 314 (S.D.N.Y. 1999)
(“[I]n the context of a civil action, perjury must be
demonstrated by clear and convincing evidence.”) (citing
Baiw Rubber Prods. Co. v. Sun Rubber Co., 425 F.2d
1114 (2d Cir. 1970)). As an initial matter, while Mr.
Joubin testified as to the creation of the NYPD crime lab
reports, Dkt. No. 132
6-8, Mr. Rowell has not
provided sufficient evidence as to NYPD crime lab
processes to show by clear and convincing evidence that
absence of field tests in the envelopes prove the field
tests were never sent to the lab. And even if the field
test reports were not sent to the NYPD lab, this is not
clear and convincing evidence of perjury by Mr. Killilea.

16a
Mr. Killilea testified that he did not specifically
remember whether or not he had sent these particular
field test reports to the NYPD lab, but that it was his
practice to do so. Dkt. No. 125, at 545:18-25, 546:1-9. This
testimony would not be perjury even if it turned out that
he had not, in these specific cases, sent the reports to the
lab.
As to Mr. Killilea's testimony that he did not back
date the field test reports, this too would not necessarily
be perjury if he had not sent the reports to the lab.
Defendants argued that sending the field tests to the lab
would have made it impossible for Mr. Killilea to back
date them. Id. at 445:5-7, 11-15. But it does not follow
that if Mr. Killilea had not sent the documents to the lab,
then he must have backdated them. At most the new
evidence would simply take one piece of evidence in Mr.
Killilea's favor off the table, but it would not prove that
he was lying. Finally, while Mr. Rowell also points out
that Mr. Killilea made the same mistake on three of the
reports, which could tend to show they were filled out on
the same day and back dated, id. at 436:15-20; 437:2-10;
441:10-17; 443:16-22, even when combined with evidence
that Mr. Killilea did not send these reports to the NYPD
this does not rise to the level of clear and convincing
evidence that Mr. Killilea backdated the reports and
perjured himself about it.
Mr. Rowell's argument that Defendants' counsel
suborned perjury is based on the same accusation, it fails
as well. Accordingly, Mr. Rowell has failed to meet his
heavy burden of showing that Mr. Killilea perjured
himself and that this so tainted the trial that Mr. Rowell
is entitled to a new one.
C. Mr. Rowell's Motion for a New Trial Based on Ms.
Speight's Summation is Denied

17a
Mr. Rowell's third argument, that Defendants'
counsel's comments during summation denied him a fair
trial, fails as well.
On February 28, 2019, counsel for the parties
delivered their closing arguments. One of Defendants'
counsel, Ms. Speight, delivered a summation in which
she repeatedly compared Mr. Rowell's lawsuit to his past
practice of selling fake drugs. Dkt. No. 127, at 679:8-14,
685:21-23, 691:9-13. For example, Ms. Speight described
Mr. Rowell's past sales of fake drugs thusly:
Plaintiffs routine is to take something fake,
sprinkle just enough of the real thing—‘crumbs,’
he said—to trick the customer, then make money.
That is how he operates. For him, he called it
selling dummies. For the customer, he said they
were buying garbage, and every time, he was
getting paid.
Id. at 679:8-12. Ms. Speight then compared this to Mr.
Rowell's claims in the case: “That's this trial for plaintiff.
He's selling you garbage. He's hoping it pays.” Id. at
679:12-14. Mr. Rowell did not raise an objection at the
time to Ms. Speight's summation.
The standard for granting a new trial based on
improper remarks during a summation is demanding.
“[A] party seeking a new trial on the basis of opposing
counsel's improper statements to the jury faces a heavy
burden, as rarely will an attorney's conduct so infect a
trial with undue prejudice or passion as to require
reversal.” Marcic v. Reinauer Transp. Cos., 397 F.3d
120, 124 (2d Cir. 2005) (internal quotation marks and
brackets omitted). “In particular, where the jury's
verdict finds substantial support in the evidence,
counsel's improper statements will frequently be de

18a
minimis in the context of the entire trial.” Id. Here, Ms.
Speight's references to Mr. Rowell's past sales of fake
drugs were amply supported by the evidence adduced at
trial. Dkt. No. 127, at 679:8-12. And Ms. Speight's various
comments to the effect that he was “selling [the jury]
garbage” and “hoping it pays” were not so prejudicial as
to require a new trial. Id. 679: 12-14. Comments by an
attorney on summation that a party is “a disgrace,” a
“schmuck,” a “scam artist,” and a “con man” who is
“fundamentally] dishonest” are insuffcient to warrant a
new trial. See Air China, Ltd. v. Kopf, 473 F. App'x 45,
51 (2d Cir. 2012). The same is true of “repeated[ ]
suggestions]” that the “case was fraudulent and
brought for financial motive.” Marcic, 397 F.3d at 125.
Finally, as here, a “claim to have been prejudiced by the
summation is considerably undermined by [a party's]
failure to object to the statements in question at trial.”
Malmsteen v. Berdon, LLP, 595 F. Supp. 2d 299, 310
(S.D.N.Y. 2009); Guzman v. Jay, 303 F.R.D. 186, 195
(S.D.N.Y. 2014) (“even if the remarks were improper,
the Court finds that it had no more than a de minimis
effect on the trial, and that Defendant's arguments to the
contrary are seriously undercut, if not waived, by,” inter
alia, “counsel's failures to lodge a contemporaneous
objection”). Accordingly, Mr. Rowell has failed to carry
his heavy burden of showing that Ms. Speight's unobjected-to remarks were so inflammatory that a new
trial is necessary.
D. Defendants' Motion for Sanctions is Denied
In their opposition to Plaintiffs motion,
Defendants move for sanctions against Plaintiff's
counsel for his “baseless but serious attack on
Lieutenant Killilea and defense counsel, in relation to

19a
both his Batson challenge and his summation remarks.”
Dkt. No. 137 at 18-19. Defendants request sanctions
under Rule 11, yet have filed to follow even the basic
requirement that “a motion for sanctions must be made
separately from any other motion.” Fed. R. Civ. Pro.
11(c). Furthermore, “[t]he standard for Rule 11
sanctions is quite rigorous and very rarely succeeds in
cases where evidence of bad faith or aggravated
misconduct is not apparent.” Indoafric Exports Private
Ltd. Co. v. Citibank, N.A., No. 15-CV-9386 (VM), 2016
WL 6820726, at *4 (S.D.N.Y. Nov. 7, 2016), affd, 696 F.
App'x 551 (2d Cir. 2017). That standard is not met here.
Finding no merit to Defendants' procedurally improper
sanctions request, it is denied.
IV. Conclusion
For the reasons given above, Mr. Rowell's motion for a
new trial is hereby DENIED. Defendants' request for
sanctions is hereby DENIED. This resolves docket item
number 131.
SO ORDERED.

20a
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT
Docket No: 19-3469

At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 26th day of January, two thousand
twenty-one.
Hozie Rowell, Plaintiff - Appellant, v. Police Officer Joan
Ferreira, individually and in her official capacity, Shane
Killilea, individually and in his official capacity,
Christopher Popovic, individually and in his official
capacity, Defendants - Appellees, City of New York,
John Doe, individually and in his official capacity,
Defendants.
ORDER
Appellant, Hozie Rowell, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of
the Court have considered the request for rehearing en
banc. IT IS HEREBY ORDERED that the petition is
denied.

FOR THE COURT: Catherine O'Hagan Wolfe, Clerk

